U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 31, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Rene A. Boucher v. United States, No. 19-6 11
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 8,
2019, and placed on the docket on November 13, 2019. The Court called for a response to the
petition on December 9, 2019. The government's response is now due, after one extension, on
February 7, 2020. We respectfully request, under Rule 30.4 of the Rules of this Court, a further
extension of time to and including March 9, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-06 11
BOUCHER, RENE
USA

MATTHEW J. BAKER
911 COLLEGE STREET
SUITE 200
BOWLING GREEN, KY 42101
270-746-2385
MBAKERLAW@BELLSOUTH.NET

